Audit Report



Return
    to the USDOJ/OIG Home Page




Midwest Regional Children's Advocacy Center Project Grant Awarded to Children's Hospital St. Paul, Minnesota Grant Number 2000-CI-FX-K001

Report No. GR-50-04-005


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Midwest Regional Children's Advocacy Center (MRCAC) Project grant and supplements awarded by the U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention to the Children's Hospital, St. Paul, Minnesota. The purpose of the grant was to increase the number of facility-based, multidisciplinary children's advocacy centers in the Midwest Region for the purposes of providing coordinated, non-traumatizing services to children and families that are victims of child abuse and neglect and to strengthen existing services through local, state, regional, and national collaboration. As of March 19, 2003, the MRCAC at Children's Hospital had been awarded a total of $1,286,115 to provide technical assistance and training to improve services available in the Midwest Region to victims of child physical and sexual abuse and neglect.
The purpose of the audit was to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
Of the $1,013,715 expended as of June 30, 2003, we tested transactions totaling $633,741 and found that the expenditures were generally allowable. However, we found deficiencies in accounting for program income, the amount of total outlays reported in the Financial Status Reports, the amount of drawdowns, and the reporting of time worked by grant funded employees. As a result of these deficiencies, we question $351,484 in grant funds received.1
Specifically, we found that funds in excess of ten percent of the grant award were transferred into grant budget categories without written approval from OJP. In addition, a portion of the program income was not credited to the grant, resulting in excess drawdowns and overstated expenses on the Financial Status Reports. Also, grant funded employees did not document the time spent on grant activities.
These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.